               Report on Audit of Labor Internal Controls

                                  May 2004

                    Reference Number: 2004-1C-096




 This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                          DEPARTMENT OF THE TREASURY
                                              WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                                  May 20, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                       Daniel R. Devlin
                                   Assistant Inspector General for Audit (Headquarters Operations
                                   and Exempt Organizations Programs)

       SUBJECT:                    Report on Audit of Labor Internal Controls
                                   (Audit #20041C0226)


       The Defense Contract Audit Agency (DCAA) had examined the contractor’s labor
       accounting system as of January 29, 2004. The purpose of the examination was to
       assure that the contractor’s system of labor controls is adequate to provide labor costs
       that are reasonable and compliant with applicable laws, regulations, and contract terms.
       The DCAA examined only the labor accounting system and, accordingly, expresses no
       opinion on the contractor’s system of internal controls taken as a whole.
       The DCAA opined that the contractor’s labor accounting system is inadequate. The
       examination noted significant deficiencies in the design or operation of the internal
       control structure. According to the DCAA, these deficiencies could adversely affect the
       organization’s ability to record, process, summarize, and report labor costs in a manner
       that is consistent with applicable Federal Government contract laws and regulations.
       These conditions include the following:
            •       The contractor lacks adequate written policies and procedures which provide for
                    monitoring of its labor system, including regular compliance audits that ensure
                    the timely and accurate recording, distribution, and payment of labor costs.
            •       The contractor’s written policies and procedures do not adequately address the
                    control and issuance of work authorizations.
            •       The contractor’s DataBasics program, as currently implemented, permits
                    supervisors to modify employee timesheets and submit them without employee
                    recertification.
                                            2

   •   The contractor’s DataBasics program, as currently designed and implemented,
       permits alternative timesheet approvers to approve their own timesheets, should
       the primary approver by unavailable.
   •   The contractor’s timekeeping system, as currently configured, does not prevent
       employees who normally charge indirect time from charging direct time to a
       project, nor does the system restrict what indirect accounts an employee who
       normally charges direct time may charge.
   •   The contractor lacks adequate written policies and procedures for overtime.
The DCAA indicated that, as a result of control risk assessments, its audit effort will be
increased in reviews of incurred labor cost, billing, and contract pricing. The DCAA also
indicated that the contractor generally agrees to the findings and is taking aggressive
action to correct the deficiencies.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
